1

Table of Appendix:
Judgment. First Circuit No 18-1213
1
(1)
■2
Judgment. First Circuit No 19-1381
(2)
Memorandum
and
Order.
US
Dist
Ct
(D.Mass.)
No 17-cv-10119-IT (dated 01/03/2018;
(3)
only its p 2 concerns False Claims Act)
3
Memorandum and Order. US Dist Ct (D.Mass.) No 17-cv-10119-IT (dated 02/13/2019;
(4)
■7
only its p 4 concerns False Claims Act)

United States Court of Appeals
For the First Circuit
No. 18-1213
UNITED STATES, ex rel. FRIEDRICH LU,
Plaintiff - Appellant,
v.
RAMANDEEP SAMRA; TRUSTEES OF BOSTON UNIVERSITY; TRUSTEES OF TUFTS
COLLEGE,
Defendants - Appellees.
Before
Howard, Chief Judge.
Torruella, Lynch, Thompson,
Kayatta and Barron, Circuit Judges.
JUDGMENT
Entered: December 12, 2019
The request for initial en banc hearing having been submitted to the active judges of this
court and a majority of the judges not having voted that the case be heard en banc, it is ordered
that the request for an initial en banc hearing be denied. Fed. R. App. P. 35(a); 1st Cir. R.
35.0(a)(1).
The panel assigned to hear this matter having carefully reviewed the record and the parties'
submissions, the Judgment is affirmed for the reasons set out in the district court's January 3, 2018,
Order.
Affirmed. See 1st Cir. R. 27.0(c). Appellant's motion to strike appellees' briefs is denied.
See Fed. R. App. P. 32.1(a); 1st Cir. R. 32.1.0. All other pending motions are denied.
By the Court:
Maria R. Hamilton, Clerk

United States Court of Appeals
For the First Circuit
No. 19-1381
UNITED STATES, ex rel. FRIEDRICH LU,
Plaintiff - Appellant,
v.
TRUSTEES OF TUFTS COLLEGE; MARIELENA GAMBOA-RUIZ,
Defendants - Appellees.
Before
Howard. Chief Judge.
Lynch and Thompson, Circuit Judges.
JUDGMENT
Entered: December 12, 2019
After a thorough review of the record and of the parties' submissions, we affirm. The
district court correctly concluded that the pro se litigant here was not allowed to pursue a qui tarn
action under the False Claims Act, 31 U.S.C. § 3730, on behalf of the United States, see Nasuti ex
rel. U.S. v. Savage Farms Inc., Case No. 14-1362, 2015 WL 9598315, at *1 (1st Cir., Mar. 12,
2015). Any challenge to the dismissal of the RICO claim, see 18 U.S.C. § 1964(c), is waived for
failure to address it in the opening brief. In any event, the dismissal was not error. See Feinstein v.
Resolution Trust Corp.. 942 F.2d 34, 42 (1st Cir. 1991): see also Giuliano v. Fulton, 399 F.3d 381,
388 (1st Cir. 2005).
Affirmed. See 1st Cir. R. 27.0(c). The appellees' request for costs and attorneys' fees is
denied. See Fed. R. App. P. 38; 1st Cir. R. 38.0. All other pending motions are denied.
By the Court:
Maria R. Hamilton, Clerk
cc:

Friedrich Lu, Donald Campbell Lockhart, Steven T. Sharobem, John Goddard Wheatley

1
Case l:17-cv-10119-IT Document 46 Filed 01/03/18 Page 1 of 4

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
FRIEDRICH LU and UNITED STATES
ex rel. FRIEDRICH LU,
Plaintiffs,

*
*
*
*

Civil Action No. 17-cv-10119-IT

v.

*

RAMAN SAMRA, TRUSTEES OF
*
BOSTON UNIVERSITY, and TRUSTEES *
*
OF TUFTS COLLEGE,
*

Defendants.
MEMORANDUM & ORDER
January 3, 2018
TALWANI, D.J.
Before the court are the Motion to Dismiss Plaintiffs Complaint Pursuant to Fed. R. Civ.
P, 12(b¥6L 9 (EL and 41(b) [#30] by Defendant Trustees of Tufts College (“Tufts”); the Motion
to Dismiss the Complaint [#39] by Defendants Raman Samra and Trustees of Boston University
(“BU”) (together, the “BU Defendants”); and Plaintiff Friedrich Lu’s Motion to File Footnote
[#42], Notice of a Fifth Circuit Case [#43], and Motion to Be Heard on Fifth Circuit Decision
[#45], The latter three filings are ALLOWED in part and DENIED in part, in that the court has
reviewed and considered each of the three filings and no further argument is needed. For the
reasons set forth below, Tufts’ motion is GRANTED, the BU Defendants’ motion is GRANTED
as to the qui tarn claim and is otherwise taken under advisement, and the parties will be permitted
limited briefing as to the court’s subject matter jurisdiction over the remaining state claims
against the BU Defendants.

Case l:17-cv-10119-IT Document 46 Filed 01/03/18 Page 2 of 4

I.

Qui Tam Claim
Count 1 of the complaint, brought on behalf of the United States, claims a violation of the

False Claims Act, 31 U.S.C. § 3729, et seq. Tufts and the BU Defendants move to dismiss this
count because Plaintiff is proceeding pro se. In the First Circuit, a pro se plaintiff cannot bring a
qui tam action. Nasuti v. Savage Farms Inc.. No. 14-1362, 2015 WL 9598315, at *1 (1st Cir.
Mar. 12, 2015), The rationale for this rule is that a relator in a False Claims Act action brings suit
on behalf of the government, and pro se litigants may not bring suit on behalf of others. Nasuti
ex rel. U.S. v. Savage Farms. Inc.. No. 12-cv-30121-GAO, 2014 WL 1327015, at *7 (D. Mass.
Mar. 27, 2014), aff d. 2015 WL 9598315. This prohibition is consistent with the restrictions
placed on pro se litigants in qui tam actions in many other circuits. See, e.g.. United States ex rel.
Brooks v. Ormsbv, 869 F.3d 356, 357 (5th Cir. 2017); Gunn v. Credit Suisse Grp. AG. 610 Fed.
App’x 155, 157 (3d Cir. Apr. 21, 2015) (collecting cases from Second, Fourth, Seventh, Eighth,
Ninth, Eleventh, and D.C. Circuits).
In accordance with 31 U.S.C. § 3730(b)(1) and the government’s request in its Notice of
Election to Decline Intervention, see Order [#22], the court requested a response from the United
States. Elec. Order [#34], The United States responded that it supports dismissal of the complaint
“because ‘a pro se plaintiff cannot bring this action’ under the False Claims Act.” United States’
Response to Def. Trustees of Tufts College Mot. Dismiss 1 [#37] (quoting Nasuti. 2015 WL
9598315, at *1).
Based on this prohibition on representation of the government by pro se litigants, and
with the consent of the government, Count 1 of the Complaint [#1] against all Defendants is
DISMISSED.

2

1

Case l:17-cv-10119-IT Document 46

III.

Filed 01/03/18

Page 4 of 4

Conclusion
For the foregoing reasons:
1.

Plaintiff Friedrich Lu’s Motion to File Footnote [#42], Notice of a Fifth Circuit

Case [#43], and Motion to Be Heard on Fifth Circuit Decision [#45] are ALLOWED in part and
DENIED in part, in that the court has reviewed and considered each filing and no further
argument is needed;
2.

Tufts’ Motion to Dismiss Plaintiffs Complaint Pursuant to Fed. R. Civ. P.

12(b¥6\ 9fbh and 41(V) [#30] is GRANTED;
3.

The BU Defendants’ Motion to Dismiss the Complaint [#39] is GRANTED in

part, in that Count 1 of the Complaint [#1] is DISMISSED, and is otherwise taken under
advisement;
4.

Plaintiff may file a memorandum, limited to five pages, addressing the court’s

subject matter jurisdiction over the remaining state law claims, by no later than January 17, 2018.
The BU Defendants may file any response, limited to five pages, by no later than January 31
2018.
IT IS SO ORDERED.
Date: January 3,2018

/s/ Indira Talwani
United States District Judge

4

1

Case l:18-cv-10105-IT Document 39 Filed 02/13/19 Page 1 of 6

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
UNITED STATES OF AMERICA, ex rel.
FRIEDRICH LU,
Plaintiff,
v.
MARIELENA GAMBOA-RUIZ and
TRUSTEES of TUFTS COLLEGE,
Defendants.

)
)
)
)
)
)
)
)
)
)

Civil Action l:18-cv-10105-IT

)

MEMORANDUM AND ORDER
February 13, 2019
TALWANI, D J.
I.

Introduction
Before the court are the Motion to Dismiss Plaintiffs Complaint [#26] by Defendant

Trustees of Tufts College (“Trustees”) and the Motion to Dismiss Plaintiffs Complaint [#33]
by Defendant Marielena Gamboa-Ruiz.
II.

Dismissal Pursuant to Fed. R. Civ. P. 41(b)
Defendants move to dismiss Plaintiff Friedrich Lu’s complaint under Fed. R. Civ. P.

41(b). Under Fed. R. Civ. P. 41(b), “[i]f the plaintiff fails ... to comply with ... a court order, a
defendant may move to dismiss [an] action or any claim against it.” Defendants point to a 2002
order requiring Lu to “attach to any pleading, motion, complaint, or other document that he files
in the United States District Court for the District of Massachusetts: (1) a copy of this Order,
and (2) a certification, signed under the pains and penalties of perjury, that he has complied in
good faith with this Order” (“March 2002 Order”). Memorandum and Order at 17, Lu v.
Harvard University et aL No. 00-cv-11492-MLW (D. Mass. Mar. 29, 2002) (Wolf, J.), Dkt. 49.

1

Case l:18-cv-10105-IT Document 39 Filed 02/13/19 Page 2 of 6

Lu does not dispute that he did not comply, but contends that the March 2002 Order “has
nothing to do with this case” because Tufts was not a party in the proceedings before Judge
Wolf. Opp. Mot. Dismiss [#29] at 2.
That the Defendants were not parties to the 2002 case is of no consequence. As Judge
Wolf explained in 2002, the parties Lu sues “must incur the costs associated with responding to
Lu’s allegations each time he files a new case. Lu’s complaints have also significantly burdened
the state and federal court systems and their limited resources.” Lu, No. 00-cv-l 1492-MLW,
Dkt. 49 at 15. These concerns are heightened here. Defendant Trustees pointed out Lu’s failure
to comply with Judge Wolfs order in a prior quitam action Lu brought against Trustees. See
Mem. In Support of Mot. Dismiss at 8, Lu v. Samra et al.. No. 17-cv-10119-IT (D. Mass. Nov.
6, 2017) (Talwani, J.), Dkt. 31. The court nonetheless considered Lu’s claim and carefully
explained why Lu could not bring a qui tam action without counsel. Lu v. Samra et al.. No. 17cv-10119-IT, 2018 WL 283891, at *1 (D. Mass. Jan. 3, 2018), on appeal, U.S. exrel, Luv.
Samra. No. 18-1213 (1st Cir.). Undeterred, and without regard to the court’s prior rulings or the
burden imposed on the parties he sues or on the court, Lu again seeks to bring a qui tam action,
without counsel, against Trustees.
Lu has been warned repeatedly that failure to comply with the March 2002 order could
result in sanctions, including dismissal. See e.g. Lu v. Menino, 98 F.Supp.3d 85, 109 (D. Mass.
2015) (warning Lu that “[i]n the event plaintiff continues to violate the March [2002] Order by
filing a complaint in this district without attaching the March [2002] Order and without
complying with the certification requirement, he is advised that such conduct may result in a
sanction, including a monetary sanction or a stricter bar to filing cases in this district.”); Lu v.
Niles. 16-cv-12220-FDS, 2017 WL 3027251, at *2 (D. Mass. July 17, 2017) (stating that “[i]n
light of Lu’s continued recalcitrance in the face of multiple warnings, defendant would have a
2

1

Case l:18-cv-10105-IT Document 39 Filed 02/13/19 Page 3 of 6

strong argument that the ‘harsh sanction’ of dismissal under Rule 41(b) should be imposed in
this case” citing Malot v. Dorado Beach Cottages Assocs., 478 F.3d 40, 44 (1st Cir. 2007).
Here, where Plaintiff not only has disregarded the March 2002 Order, but affirmatively
asserts that the order “has nothing to do with this case,” and where he seeks to relitigate issues
Defendant Trustees have previously been forced to defend against, the court finds that dismissal
for failure to comply with the March 2002 Order is an appropriate sanction. Accordingly, the
court grants Defendants’ motion to dismiss pursuant to Rule 41(b).
III.

Dismissal Pursuant to Federal Rule of Civil Procedure 12(b)(6)
Although dismissal is appropriate under Rule 41(b), in light of “concerns of justice,

including the strong presumption in favor of deciding cases on the merits,” Malot, 478 F.3d at
43, the court considers in the alternative whether Plaintiffs complaint could withstand scrutiny
under Rule 12(b)(6).
A. The Allegations in the Complaint
Lu alleges that in 2014, he became a patient of Dr. Gamboa-Ruiz of Tufts Dental
Associates (“Tufts Dental”). Compl. ^ 3. Lu alleges that Gamboa-Ruiz “decided” that he
needed root canal, and Lu prepaid for the procedure, which was to occur on a different date.
Id. On the date of the scheduled procedure, however, Gamboa-Ruiz allegedly “removed the
amalgam filling, made a diagnosis of hairline fracture, and refused to proceed [. . .].” Id. The
complaint alleges that Lu “pleadfed] with Gamboa-Ruiz to complete the root canal, but she
instead filled the crown with a stopgap [.. .] and went on weeks-long vacation.” Id. Lu claims
that in the intervening time, he returned to Tufts Dental several times to tell the staff that he
needed a root canal, and asking to see a dentist. Id- Lu alleges that Gamboa-Ruiz did not reply
to the notes he left, and would not refund any money for the procedure. Id. at 4. Lu wrote
demand letters to Tufts Dental and to Gamboa-Ruiz, to which he received no reply. Id. Finally,
3

r

Case l:18‘CV-10i05-IT Document 39

Filed 02/13/19

Page 4 of 6

Lu received a check from the Trustees in the amount of half his deposit. Id. at 5. Lu alleges
that he later learned that his tooth was fractured in halves, that Tufts Dental was a “front” for
Defendant Trustees, and that although Gamboa-Ruiz was not allowed to practice
independently, she saw patients paid by Medicaid and Medicare at Tufts College, but not at
Tufts Dental. Id. at 6.
A.

Qui Tam Claim

Count 1 of the complaint, brought on behalf of the United States, alleges a violation of
the False Claims Act, 31U.S.C. § 3729, etseq. Trustees and Gamboa-Ruiz move to dismiss this
count because plaintiff is proceeding pro se.1 A pro se plaintiff cannot bring a qui tarn action
under First Circuit law. Nasuti v. Savage Farms Inc.. No. 14-1362, 2015 WL 9598315, at *1
(1st Cir. Mar. 12, 2015). The rationale for this rule is that a relator in a False Claims Act action
brings suit on behalf of the government, and pro se litigants may not bring suit on behalf of
others. Id. at *7.
Based on this prohibition on representation of the government by pro se litigants, Count
1 of the Complaint [#1] against all Defendants is subject to dismissal under Rule 12(b)(6).
B.

Lanham Act Claim

In his Opposition to the Tufts’ -Motion to Dismiss [#29], Lu concedes dismissal of Count
2, which alleges a claim under the Lanham Act. See Opp. ^ 4 (“A heading in Memorandum 9
reads: ‘Lu’s Complaint Fails to State a Claim for Violation of the Lanham Act.’ Lexmark
International, Inc v. Static Control Components, Inc (2014) 572 US 118 is on point, and Lu
concedes dismissal of that count.”). Accordingly, Count 2 is subject to dismissal On

l

In accordance with 31 U.S.C. § 3730(b)(1) and the government’s request in its Notice of
Election to Decline Intervention, see Order [# 12], the court requested a response from the
United States. Elec. Order [#36]. The United States responded that it supports dismissal of the
complaint, without prejudice with respect to the government. Gov. Resp. Mot. Dismiss [#38].
4

:

r

Case l:18-cv-10105-IT Document 39 Filed 02/13/19 Page 6 of 6
. *

Accordingly, because Lu’s federal claims are subject to dismissal under Rule 12(b)(6), and
because there is no judicial economy in retaining jurisdiction, the state law claims are subject to
dismissal as well.
E.

Attorney’s Fees and Costs

Defendants also seek reasonable attorney’s fees and costs, pursuant to 31 U.S.C.
§ 3730(d)(4), 15 U.S.C. § 1117(a) and Fed. R. Civ. P. 11, on the grounds that Lu’s claims are
frivolous, vexatious, and/or brought primarily for the purposes of harassment. Although Lu’s
federal claims are frivolous and vexatious, the court finds it is unlikely that he will be able to
provide any fees. The court hereby DENIES this request.
IV.

Conclusion
Lu’s complaint is DISMISSED pursuant to Rule 41(b) for failing to comply with the

March 2002 order. Count 1 of Lu’s complaint, a qui tarn claim, is also subject to dismissal for
lack of representative capacity to bring a qui tam action. Count 2 is also subject to dismissal as
- the motion to dismiss is unopposed. Count 3 is also subject to dismissal because Lu’s
complaint fails to state a claim of RICO and wire fraud, pursuant Fed. R. Civ. P. 12(b)(6) and
Fed. R. Civ. P. 9(b). Lu’s remaining claims are also subject to dismissal as the court would
decline to exercise supplemental jurisdiction over Lu’s state claims.
The dismissal of the federal claims is with prejudice as to Lu, and without prejudice as
to the United States. The dismissal of the state law claims is without prejudice.
IT IS SO ORDERED.

Date: February 13, 2019

Indira Talwani
United States District Judge

6

i

